I

Jeff Howell
P.O. Box 6093
Bloomington IN 47407-6093
October 2, 2020
Clerk
Supreme Court of the United States
1 First Street NE
Washington DC 20543-0002
RE: Jeff Howell v. State of Indiana
Dear Sir or Madam,
Enclosed, please find originals of my Motion to Proceed In Forma Pauperis
along with my affidavit supporting same, my Petition for Writ of Certiorari, and
Appendix. Please file with the Court accordingly.
I hereby certify that I have served the following party pursuant to Rule 29
and this Court’s Temporary Order of April 15, 2020:
Indiana Attorney General
302 W. Washington Street, 5th Floor
Indianapolis IN 46204
This service was effected by depositing one copy of each of the above
documents with the U.S. Postal Service for delivery via first class mail, with
postage prepaid by me.
Please contact me with any questions.
Respectfully,

Jeff Howell, Petitioner, pro se
Sworn and subscribed before me on this, the 2nd day of October, 2020.

\*l SEAL :;f

i

MYRA SMITH
My Commission Expires
y May 22,2025
Commission Number NP0700689
Lawrence Counly___

No

An

ublic

RECEIVED
OCT 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT ii q

Jeff Howell
P.O. Box 6093
Bloomington IN 47407-6093
October 2, 2020
Clerk
Supreme Court of the United States
1 First Street NE
Washington DC 20543-0002
RE: Jeff Howell v. State of Indiana
Dear Sir or Madam,

i

\

As required by Supreme Court Rule 33.1(h), I certify that, according to the
word-count features of the word processing software used to create the document,
the enclosed Petition for Writ of Certiorari contains 2,581 words, exclusive of the
parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the above is true and complete to the
best of my knowledge and belief.
Please contact me with any questions.
Respectfully,

Jeff Howell, Petitioner, pro se

Sworn and subscribed before me on this, the 2nd day of October, 2020.

MYRA SMITH
My Commission Expires
■'o\
. y May 22,2025
% SEAL,£ Commission Number NP0700689
Lawrence County
_

No

m

ublic

